3 Copies
Sign in
Blue Ink
DECLARATION

1/ JOSEPH

B.

OF

JOSEPH

B.

GARCIA

GARCIA, BEING DULY SWORN THIS DAY OF SEPTEMBER

3, 2020, HEREBY DECLARE AND STATE AS FOLLOWS:

1.) That I am the petitioner in the above-entitled action, acting
in pro se, by and through my legal assistant.
2.)

That I on this 3rd day of September 2020, at Corcoran State

Prison, hereby placed in the United States Mail via correctional
officer, a petition for writ of certiorarF"to the United States
Supreme, addessed as follows:
United States Supreme Court
Office of the Clerk
One First Street, N.E.
Washington, D.C.
20543
3.)

That due to the COVID-19 Pandemic, many times the mail

service from this prison is delayed.

However, to the best of my

knowledge, once handed over to state correctional office, signed
and sealed, it is timely filed.
4. )

I, Joseph B. Garcia, hereby declare under the penalty of

perjury that the foregoing is true and correct,

Accordingly, to the

laws of the United States of America.
5.)

Executed this 3rd day of September

2Q

Corcoran State

Prison.
/S/
JOSEPH/ BELARDED GARCIA
DECLARANT/PETITIONER
Page 1 of 1.

Sign After Copying

3 Copies of each page
First Copy, write or
place original label in
lower right-hand corner.
Sign in blue ink Proof
of Service (1st page)

D.

IN THE

Sign in Blue Ink page
16
Original and Forma Pauperis
Eorrn, Declaration go to
" U.S. Supreme Court

E COURT OF THE UNITED STATES

JOSEPH BELARDE GARCIA

— PETITIONER

VS.

RECEIVED

DEftN BORDERS. Warrtpn

— RESPONDENT(S)

SEP 2 3 2020

PROOF OF SERVICE
I, JOSEPH BELARDE
September 3,

GARCIA

, do swear or declare that on this date,
, 20 -2H, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial earner for delivery within 3 calendar days.
ji The names and addresses of those served are as follows:
California Attorney General Office
300 South Spring Street,

Suite

No.

1702

Los Angeles, California, 90013

I declare under penalty of perjury that the foregoing is true and
Executed on

September

3,

rrect.

,20^

JO

BELARDE

GARCIA

